<html>
<title> - ASSAD'S ABHORRENT CHEMICAL WEAPONS ATTACKS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      ASSAD'S ABHORRENT CHEMICAL 
                            WEAPONS ATTACKS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

                           Serial No. 114-57

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE 

95-127PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert Ford, senior fellow, The Middle East 
  Institute......................................................     4
Mohamed Tennari, M.D., Idlib coordinator, Syrian-American Medical 

  Society........................................................    10
Mr. Farouq Habib, Syria program manager, Mayday Rescue...........    21
Annie Sparrow, M.B.B.S., deputy director human rights program, 
  Assistant Professor of Global Health, Icahn School of Medicine 
  at Mount Sinai.................................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Ford: Prepared statement....................     6
Mohamed Tennari, M.D.: Prepared statement........................    12
Mr. Farouq Habib: Prepared statement.............................    23
Annie Sparrow, M.B.B.S.: Prepared statement......................    30

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
Mohamed Tennari, M.D.: Material submitted for the record.........    63
Mr. Farouq Habib: Material submitted for the record..............    68
Annie Sparrow, M.B.B.S.: Material submitted for the record.......    73
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    84

 
                      ASSAD'S ABHORRENT CHEMICAL 
                            WEAPONS ATTACKS

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. This 
morning we consider the continued use of Bashar al-Assad's 
chemical weapons strategy, his use of those chemical weapons on 
his own people.
    Two years ago, the world was stunned when Assad used sarin 
in the suburbs of Damascus--in that attack on that day 1,500 
people were killed. In response, President Obama threatened 
military action, and the Assad regime agreed to a hastily 
brokered deal to remove and destroy what was to be ``all'' of 
Syria's substantial stockpile. A year later, President Obama 
declared success. In February, Secretary Kerry testified that 
``we got . . . all the chemical weapons out of Syria.''
    Well, that would be news to two of our witnesses here today 
because they've been on the front lines struggling to save the 
lives of those targeted by the regime's barrel bombs that are 
filled with weaponized chlorine. Dr. Tennari serves in the 
field hospital in Idlib Province and Mr. Farouq Habib works 
with the Syrian Civilian Defense--a group of volunteer first 
responders who dig through the rubble to treat victims.
    As the Assad regime loses more territory, the regime has 
stepped up its chemical attacks on the civilian population in 
opposition controlled areas. What first appeared to be random 
and irregular attacks has become a steady, unending series of 
chemical attacks with the aim of decimating the middle class in 
these civilian populations. And, meanwhile, that same Syrian 
middle class tries to hold off ISIS on the ground as ISIS tries 
to overrun their position, so they face a one-two punch of ISIS 
on their border and Assad's barrel bombs with chlorine coming 
down on the population.
    Over 8 weeks this spring, Idlib saw 29 chlorine attacks. 
Most began just 10 days after the U.N. Security Council passed 
a resolution which threatened the use of force against anyone 
found to have used chlorine as a weapon. In almost cases, the 
chlorine was delivered by barrel bomb from a helicopter. Assad 
has seen the world's complacency and decided that he can 
literally get away with mass murder of civilians.
    Anyone can be a target. The regime will even drop one bomb. 
It will then wait for the first responders, and then drop 
another one. Many chlorine attacks take place at night when 
families have taken cover. A heavy gas, a chlorine gas seeps 
down into makeshift bomb shelters. As we'll hear, this toxic 
gas has a horrific impact on the human body: Foaming at the 
mouth, gasping for breath, and dying slow, agonizing deaths as 
the chlorine gas turns to hydrochloric acid in the lungs of the 
victims, many of these victims children.
    Unfortunately, the administration continues its slow 
response. Last month, the President still spoke of needing 
further confirmation that it was the Assad regime that is 
responsible for the chemical attacks. Let's be clear: Only 
Assad's forces have helicopters, only Assad's forces have those 
helicopters take off from Assad's bases and routinely drop 
barrel bombs on the civilian middle class in areas like Allepo. 
Yesterday, Ambassador Power told the committee here that those 
responsible for these attacks must be held accountable. Yes, 
they must, but when? When will they be held accountable?
    U.S. policy has to change. Last month, Ranking Member Engel 
and I offered a successful amendment to the defense policy bill 
directing the Pentagon to closely examine a no-fly zone over 
Syria, denying Assad ownership of the skies. Syrians would no 
longer be forced to choose between staying above ground where 
they could be killed by the shrapnel Assad packs inside the 
barrel bombs, or going below ground where they are more 
vulnerable to suffocating from chlorine gas. The daily decision 
to go to the market, or to go to the school, or to go to sleep 
at night would no longer be a life or death decision.
    Of course, the United States can't do this on its own. It 
would need strong support and participation from our regional 
partners. Many of them have been asking and offering their 
support.
    The administration should also be looking at other more 
immediate, non-military methods that might save lives. Radar 
systems for opposition held area could serve as early warning 
systems. Air raid sirens could sound the alarm. Sensors could 
detect chemical weapons and allow first responders to be 
prepared as they rush to aid victims.
    This can't just keep going on and on. If nothing is done, 
the human tragedy in Syria and the region will reach depths the 
world hasn't seen in generations-taking a human toll, harming 
our security, and sending a powerful and frightening message 
that chemical attacks are tolerated.
    I now yield to Ranking Member Engel, an early and intense 
critic of the Assad regime and someone who has long worked to 
shape Syrian policy toward humanitarian end ever since he first 
called to our attention the people in Damascus walking through 
the streets saying, ``Peaceful, peaceful,'' in their effort to 
reform, and the fact that the Assad regime opened up on the 
civilian population with automatic weapons and slaughtered the 
population in the streets.
    He has long been focused on finding ways to end the civil 
war in Syria, and help the suffering of the Syrian people, and 
I appreciate his leadership on these issues. Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing. Thank you for your leadership and working so 
closely with me to help the Syrian people.
    My heart grieves for the Syrian people. I only wish that we 
had made some different policy choices in Washington 3 years 
ago when the Free Syria Army was begging us to aid and equip 
them. And I said then put in legislation that we should have 
equipped them, and perhaps things would be different today in 
Syria. I know we're still trying to find our way, but when we 
didn't equip them, we had the terrorist group, ISIS, move into 
the void, and it's just been a disaster. But we still have to 
pay attention, and still have to right the wrongs, and still 
have to let the Syrian people know that we stand with them, 
that we're not forgetting about them, and that we're not going 
to stop until these atrocities stop.
    Over the last 4 years, the civil war in Syria has cost 
hundreds of thousands of lives, left millions displaced and 
created a lost generation of Syrian orphans. As their nation 
has been torn apart, the Syrian people have faced a stark 
choice, flee their country as refugees or live every day under 
the threat of Assad's barrel bombs.
    Perhaps the worst chapter in this conflict came in August 
2013 when the Assad regime used sarin gas to wipe out hundreds 
of people in the Damascus suburb of Ghouta. Before this 
massacre, only the second time sarin had been used since World 
War II, President Obama said that a chemical weapons attack 
would be a red line.
    As Congress and the administration contemplated military 
action, Assad backed down at that point. He agreed to give us 
his entire chemical weapons stockpile, and signed the Chemical 
Weapons Convention. Last June, the Joint Mission of the 
Organization of the Prohibition of Chemical Weapons, the OPCW, 
and the United Nations announced that all of these weapons had 
been removed from Syria. But now, true to form, Assad is 
testing the international community again.
    In September, the OPCW concluded, and I quote, ``with a 
high level, a high degree of confidence, that chlorine was 
used,'' and this is a quote again, ``systematically and 
repeatedly,'' in attacks in Northern Syria. Since then, more 
chlorine attacks have been reported. Though not as deadly as 
sarin, the use of weaponized chlorine is still a violation of 
the Chemical Weapons Convention.
    Dropping from the sky in Assad's barrel bombs, these 
chlorine attacks have killed or wounded hundreds. Innocent 
civilians have lived in terror knowing what to expect when 
helicopters appeared on the horizon. No one should have to live 
with that kind of fear. That's why Chairman Royce and I offered 
a measure which passed the House last month to direct the 
Pentagon to take a hard look at the possibility of a no-fly 
zone.
    In recent months, Assad has appeared increasingly 
vulnerable. Sadly, that has only made his tactics more 
desperate and violent. Assad remains a magnet for extremists, 
and as long as he remains in power, Syria will not find peace. 
He holds absolutely no place in Syria's future.
    Today's testimony will help us shape U.S. policy toward the 
Assad regime at a critical point in the Syrian conflict. I look 
forward to hearing from our distinguished panel. I'm glad to 
see Ambassador Ford here again, who has been to this committee 
a number of times. And, Ambassador, we are always praising your 
good work, the good work that you have done in the past, and 
the good work that you continue to do. And I look forward to 
our other witnesses, as well.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Ambassador Ford, welcome. Ambassador Ford served as the 
United States Ambassador to Algeria from 2006 to 2008, and as 
the U.S. Ambassador to Syria from 2010 to 2014. Prior to that, 
the Ambassador was stationed with the U.S. Foreign Service 
throughout the Middle East and North Africa. He is currently a 
senior fellow at the Middle East Institute.
    Dr. Mohamed Tennari works as the Syrian American Medical 
Society's medical coordinator in Idlib, Syria. He performs 
emergency medicine in local field hospitals. Dr. Tennari 
recently spoke before the United Nations Security Council about 
his experiences treating chlorine attack victims in Syria. Over 
the years, we've had the opportunity tragically to see the 
photographs that he has taken of children that he's treated who 
perished under the gas attacks.
    Mr. Farouq Habib is a program manager at Mayday Rescue 
which is a nonprofit organization that provides support to 
Syria's Civil Defense. Mr. Habib is a leading activist in 
Syria, and in 2012 was invited to speak on humanitarian 
confidence-building measures at the U.N. General Assembly.
    Dr. Annie Sparrow is currently deputy director of the human 
rights program in the Department of Global Health at the Icahn 
School of Medicine at Mount Sinai in New York. Dr. Sparrow has 
been documenting health crisis on the Syrian borders since 
2012.
    And without objection, all of your statements will be made 
part of the record, and our members here will have 5 calendar 
days to submit any statements to you, or any questions, or any 
extraneous material that they might want to submit in the 
record.
    So, we will begin with Ambassador Ford, and we'll ask each 
of you to summarize in 5 minutes for your opening statement. 
Ambassador Ford.

  STATEMENT OF THE HONORABLE ROBERT FORD, SENIOR FELLOW, THE 
                     MIDDLE EAST INSTITUTE

    Ambassador Ford. Mr. Chairman, Ranking Member Engel, and 
other distinguished members of the committee, thank you for the 
invitation today, and it's a real honor to be on this panel 
with the other members. I'm looking forward very much to seeing 
what they present.
    I would like to thank you very much for having this 
hearing. As you noted, it's an important gesture to Syria and 
Syrian civilians, and it is the right and decent thing to do, 
but it's also really important for our national security 
because the Islamic State in its recruiting efforts, its 
propaganda highlights that western countries like the United 
States don't care about Syrian civilian casualties, and western 
countries don't care that Assad is dropping chemical weapons on 
civilians. So, this hearing is an important step in deflecting 
that Islamic State recruitment propaganda.
    I'd like to just make a couple of quick points. First, in 
the very bitter war of attrition in Syria, the military 
situation is slowly but very steadily turning against President 
Assad and his regime. His forces are running out of manpower, 
and as that dynamic goes forward, the Syrian regime will more 
and more want to use chemical weapons to make up for manpower 
shortages. They are using them more now than they did 2 years 
ago, and they are not deterred from using them. Let me say that 
again. They are not deterred from using them.
    Now, after the horrors of World War I, the second point I 
want to make is that there has long been an international 
consensus not to use chemical weapons, including chlorine gas. 
The Syrian Government is using chlorine gas with impunity, and 
other states like North Korea are observing that impunity. We 
need to understand that an international consensus forged after 
World War I is steadily eroding.
    The third point I'd like to make: Ambassador Power and her 
team at the United Nations State Department are admirably 
trying to forge a new international consensus to stop this use 
of chlorine gas. The United Nations Security Council, even 
Russia and China, approved Resolution 2209 in March. That 
resolution warned the parties in the Syrian conflict that the 
international community would act under Chapter 7 of the U.N. 
Charter against any party in the Syrian conflict that is using 
chemical weapons. And as you mentioned, the Organization to 
Prohibit Chemical Weapons has already stated that they are 
being used in Syria. The problem is the OPCW investigative team 
had no mandate to determine which side in the conflict is using 
chemical weapons. So, Ambassador Power with other members of 
the Security Council now are trying to forge a mandate to 
determine how an investigative committee, an investigative team 
would determine that responsibility.
    Countries like Russia and Iran, both of whose armies in 
wars past have suffered horrible chemical weapons attacks, have 
an interest in working with us to stop this violation of a 
longstanding international norm.
    Finally, if the United Nations Security Council cannot act, 
and we have seen Russian vetoes before, then the United States 
needs to be ready to act within a smaller coalition. We could 
help Syrians identify and interdict chemical weapons attacks. 
We could also act with regional states to impose a no-fly zone, 
if necessary, to stop chemical weapons attacks. A no-fly zone 
would both save lives, and if properly negotiated and properly 
implemented, would actually facilitate getting to national 
political negotiations.
    It's important to keep our eyes focused on priorities now 
in the short term to stop attacks that violate longstanding 
international norms, and in the long term to use any 
applications of force, direct or indirect, to move toward a 
political settlement in Syria. Ultimately, only a political 
settlement will really protect Syrian civilians.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Ford follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador.
    Dr. Tennari.

 STATEMENT OF MOHAMED TENNARI, M.D., IDLIB COORDINATOR, SYRIAN-
                    AMERICAN MEDICAL SOCIETY

    [The following testimony was delivered through an 
interpreter.]
    Dr. Tennari. Chairman Royce, Ranking Member Engel, and 
honorable members of the committee on the House Foreign Affairs 
Committee, on behalf of the Syrian-American Medical Society and 
on behalf of Syrian medical professionals, and on behalf of the 
Syrian people, I thank you for the opportunity to speak in 
front of you today.
    I have traveled here today from my Province of Idlib in 
order to witness in front of you about the experiences of the 
chemical weapons use that I witnessed in Syria.
    Four years ago, I helped establish a field hospital in 
Sarmin, in Idlib Province. This is our fourth building after 
the first two were destroyed by Assad bombing. The Syrian 
Government systematically targets hospitals and ambulances in 
all non-government controlled areas. Even our field hospital 
that we operate in today has been subject to the bombing of the 
Assad regime 17 times, not to mention the systematic targeting 
of physicians in Syria on a regular basis only for being out 
there and treating people.
    I, myself, was arrested at the beginning of the revolution 
twice in 2011. My other medical colleagues have not been as 
lucky as I, and more of my friends are dead than those that are 
left alive.
    Over the last 4 years we have seen horrific violence 
against the civilians in Syria. That was in the form of barrel 
bombs, missile attacks, and regular shelling. In the past 3 
months we have experienced a new type of terror, and that is in 
the form of barrel bombs that contain chemical weapons. Since 
March 16th of this year, we have documented 31 attacks using 
poisonous gas in Idlib Province, where more than 380 Syrian 
civilians were injured by it. Ten of them died of suffocation. 
The last attack was yesterday in Allepo in a small town.
    I remember well the night of March 16th when the first 
attack of poisonous gas was used. I heard helicopters over my 
house around 8:45 p.m., and I heard on my walkie-talkie the 
reports that there was another chemical attack that had just 
happened. I left my house immediately to head to the field 
hospital, and as soon as I left the house, I could smell 
chlorine bleach in the air. As soon as I arrived at the 
hospital there were many victims that had beaten me there, and 
all of them had symptoms of being subjected to suffocating, 
poisonous gas.
    Dozens of people experienced difficulty breathing, and 
their eyes and throats were burning. They were also secreting 
saliva and foam from their mouth. We were laying bodies on the 
floor because all of our beds were completely full, and our 
small hospital turned into a place of chaos and screaming. We 
started treating them by giving them oxygen gas and inhalers, 
as well as using different antidotes like Atropine and 
Intropine.
    As soon as we finished treating this first wave of people, 
we received another wave of people that came from another 
attack that hit Sarmin. From those who came in with that second 
wave, I saw my own friend, Mr. Waref Taleb. He, his wife, his 
mother, and three of his children under the age of three all 
came in with injuries. The three kids were all suffering from 
symptoms of being exposed to poisonous gas as they arrived. And 
this is a video from that night.
    [Video played.]
    Dr. Tennari. This is the Town of Sarmin. This is the 
children that have been exposed to poisonous gas tonight. The 
reason they're on top of each other is because the hospital had 
no room for any more victims.
    Everything that we did for them was not enough to save 
their lives. The barrel bomb had fallen through the ventilation 
shaft in their house and has turned their house and their 
basement into a gas chamber.
    I wish that this event was something that is unique or a 
one-time thing, but this is a regular event that goes on. On 
April 16th, only--very soon after this--1 month after this 
attack, I testified in front of the United Nations Security 
Council. Less than 2 hours after I finished my testimony I got 
another call saying that there was another chlorine attack, 
another poison gas attack that happened in Idlib Province. And 
as I sit here in front of you, I fear again that I may get a 
call in a couple of hours that tells me there was another 
chemical attack that has happened in my town.
    These chlorine-filled bombs are falling regularly over 
civilian areas, and this is what we call collective punishment 
by the Assad regime against the opposition. And although these 
attacks are not causing a huge amount of death, it has caused a 
lot of terror within the populations forcing people to become 
internally displaced and refugees. And this is what I consider 
the goal of the Assad regime in these attacks: To help displace 
the populations.
    In reaction to these chemical attacks by the regime, the 
international community gave us some medicines, including 
Atropine. And this is incredibly disappointing. That means the 
international community knows that the Assad regime will be 
using chemical weapons attacks against us, and will do nothing 
to prevent it. What we need is not Atropine, what we need is 
urgent help to stop these aerial attacks.
    I can tell you as a doctor that the number one cause of 
death of people in Syria are the explosive barrel bombs. And 
our number one and our main ask is for the international 
community to help protect us from these aerial attacks. And if 
it means using a no-fly zone, that would so be it. I ask you to 
please work closely and urgently with the White House to figure 
out a plan to help stop these aerial attacks that are regularly 
bombarding us.
    I want to thank the committee for its leadership in 
addressing this important topic of ongoing chemical attacks in 
Syria. I hope bearing witness in front of you today can help 
show the dire need for immediate aid to help the civilians in 
Syria, and I hope that you move to take urgent action to end 
the barrel bombs and the chemical attacks in Syria. Thank you.
    [The prepared statement of Dr. Tennari follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. Thank you, Dr. Tennari.
    We go now to Mr. Habib.

 STATEMENT OF MR. FAROUQ HABIB, SYRIA PROGRAM MANAGER, MAYDAY 
                             RESCUE

    Mr. Habib. Chairman Royce, Ranking Member Engel, and 
distinguished members of the committee, allow me first to thank 
you for giving me this opportunity to testify about the ongoing 
tragedy that the Syrian people are living through, particularly 
those who are the victims of the attacks of the chemical 
weapons, despite multiple international resolutions that 
prohibit using these horrific weapons.
    My name is Farouq Habib. When the Syrian revolution began, 
I was working as a banker in a private Syrian bank. My belief 
that my people have the right to live with dignity and freedom 
obliged me to join the peaceful movement to defend the human 
rights in Syria. Currently, I'm working for Mayday Rescue, 
managing the training and equipping program for rescue teams in 
Syria known as the White Helmets.
    Through my years of activism inside Syria since the 
beginning of the revolution, I personally witnessed deliberate 
attacks by the regime forces against civilians, hospitals, and 
rescue teams that were initially working spontaneously.
    Later, Syrians, particularly those in liberated areas, had 
to establish civil defense groups with only the tools available 
to them in order to respond to the intense and indiscriminate 
attacks. I now work with this organization to assist in 
responding to these attacks. Through my job, I constantly work 
with field search and rescue teams to determine their needs and 
find solutions for the challenges they face. Therefore, I 
closely monitor the attacks, particularly those carried out by 
unconventional weapons, as they pose the greatest challenge.
    These teams have faced an exceptional challenge with the 
regime's use of barrel bombs as a horrific tool to impose 
collective punishment against communities out of the regime's 
control. These TNT-filled weapons which eject nails, metal 
scrap, and other random cheap and harmful shrapnel take dozens 
of innocent lives every day, but for many Syrians have become 
merely traditional weapons compared to the more advanced bombs 
the regime developed by adding chlorine gas, which is 
inexpensive and readily available. This primitive, cheap, and 
indiscriminate weapon has become a source of constant panic 
among Syrian civilians due to the fear it spreads when people 
hear the news of its use in nearby areas.
    This dirty chemical weapon causes physical injuries that 
show through symptoms like suffocating and fainting, and can 
lead to death if the injured are not attended to in due course. 
These weapons are most dangerous if inhaled by people stranded 
in small spaces, and that is what happens to those stranded 
under the rubble of buildings that collapse on top of their 
residence due to the force of barrel bombs.
    Starting from the 16th of March this year, the regime 
resumed its chemical attacks against the opposition areas. Only 
10 days after the U.N. Security Council Resolution 2209, which 
reaffirmed the prohibition and use of chlorine gas as a weapon 
and classified it as chemical warfare. The resolution also 
warned of taking action under Chapter 7 in the event it's used 
again in Syria. This resolution is related to a previous 
resolution, 2113, which was released in 2015, and that called 
for destroying Syria's chemical weapons, and also for taking 
action under Chapter 7 in the event the chemical weapons are 
used. Resolution 2209 is also related to the 2014 Resolution 
2139 which prohibits using conventional barrel bombs as weapons 
in Syria due to their indiscriminate nature.
    Unfortunately, during the 3 months that followed Resolution 
2209, the number of chlorine attacks was more than double those 
in the entire previous year. Yes, I repeat again. The number of 
chlorine attacks was more than double those in the entire 
previous year just after the Security Council resolution.
    Between March 16th and June 9th in 2015, Syria's Civil 
Defense Teams responded to 23 air raids, during which 46 barrel 
bombs containing chlorine gas were dropped. And, of course, the 
actual number of the chemical attacks was even higher.
    I don't think that anyone among this audience here today 
has the slightest degree of uncertainty about the identity of 
the perpetrator. There are hundreds of pieces of evidence 
including photographs, videos, and testimonies like the ones I 
attach here proving that this gas spreads from the aerially 
dropped barrel bombs, usually delivered by helicopters. As 
everyone knows, and as Ambassador Samantha Power has repeatedly 
noted, the Assad regime is the only one using helicopters in 
Syria excluding, of course, the coalition forces.
    Ladies and gentlemen, when I was struggling in Homs for 
democracy, I and my colleagues believed that there were nations 
around the world that supported the spread of democracy. I 
believed, and I organized others to rise up and challenge the 
dictatorship of Bashar al Assad, and have been waiting for 4 
years for my faith in the values on which this great country 
was founded to be demonstrated.
    The dictator of Syria claims that he is fighting the 
Islamic State, but only last week both he and the Islamic State 
were attacking together the armed opposition in Northern 
Allepo. And just a few hours ago, the regime used chemical 
weapons again in Allepo City, itself.
    The legitimacy of the international community crumbles when 
it becomes merely ink on paper, forgotten in drawers of 
bureaucracy to become fatal.
    As the greatest power in today's world, the United States, 
along with other international powers that chant human rights 
slogans and spread the values of justice and democracy, should 
move immediately to stop the killing machine operated by the 
Assad regime against the Syrian people. This can be done 
through imposing a no-fly zone that would prevent the regime's 
aircraft from continuing to drop chemical barrel bombs. A no-
fly zone would also help to create a safe haven for civilians. 
No one can no longer use as an excuse the Security Council's 
inability to impose its resolutions because in reality, for 
oppressed people everywhere, it has become the Insecurity 
Council due to its blatant failure to protect them. Thank you.
    [The prepared statement of Mr. Habib follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
                              ----------                              

    Chairman Royce. Doctor.

  STATEMENT OF ANNIE SPARROW, M.B.B.S., DEPUTY DIRECTOR HUMAN 
  RIGHTS PROGRAM, ASSISTANT PROFESSOR OF GLOBAL HEALTH, ICAHN 
               SCHOOL OF MEDICINE AT MOUNT SINAI

    Dr. Sparrow. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, thank you for inviting 
me to speak today.
    For 2 years now, I've been traveling to the Syrian border 
where I do three things. As a critical care pediatrician, I 
train doctors inside Syria. As a doctor experienced in wars, 
many wars, I track and document the violations of medical 
neutrality and other human rights violations. And as a global 
health specialist, I track the devastating public health 
consequences which are, indeed, a consequence of the way Assad 
has chosen to fight this war by targeting civilians, by 
attacking doctors, by destroying hospitals and other civilian 
infrastructure that is vital to health. And it's no accident 
that since March the 16th when the chlorine attacks renewed 
that the assaults on hospitals was likewise escalated.
    We know that after the chemical massacre August 2013, Assad 
was forced to give up his stockpiles of sarin but, 
unfortunately, that doesn't work for chlorine, because unlike 
sarin, chlorine has legitimate and deeply important uses, the 
most important of which is its ability to decontaminate our 
drinking water. Syrians need it, just as America does. In fact, 
the way Assad has even withheld chlorine from opposition 
territory has fueled epidemics of disease, such as the polio 
outbreak of 2013 which then spread to Iraq. This in itself is 
an indirect method of biological warfare.
    And on top of that, chlorine is easy to manufacture. It's 
even cheaply made from readily available industrial 
ingredients. Many of these bombs we know are made domestically, 
so forcing Assad to give up stockpiles just doesn't work here. 
We have to stop Assad using it as a chemical weapon. And let me 
be quite clear here, using chlorine to kill and terrorize 
people makes it into a chemical weapon, a violation of the 
Chemical Weapons Convention, and Obama's redline even when the 
substance also has legitimate uses.
    As you've heard, these bombs are delivered simply by 
rolling them out of helicopters, which is the same way the 
barrel bombs, a far more effective way of killing people, are 
delivered. But together, the barrel bombs and the chlorine 
bombs create maximum trauma and terror. And the way he is using 
both currently to target civilians and hospitals is 
spectacularly effective in driving the exodus of millions of 
refugees and compounding this public health crisis, which has 
regional and global repercussions.
    Germs don't need passports. We've seen that very clearly 
with polio and Ebola. Assad's denial of chlorine and his use of 
it as a chemical weapon puts us all in danger.
    We know that U.N. Security Council isn't working because of 
the Russian veto, so here's where the U.S. working with its 
willing partners can come up with its own response. We've 
talked a little today about a no-fly zone. I believe at this 
stage the most practical approach is a highly specific no-fly 
zone.
    Assad may have valid uses for transporting troops to fight 
ISIS, but neither the barrel bombs nor chemical weapons are 
used to fight ISIS. They're not used to fight any combatants. 
Some of you will have seen on the maps that these attacks are 
nowhere near ISIS, or even front lines, and so they can be 
stopped without impeding Assad's or our own ability to fight 
ISIS.
    First of all, establishing a limited no bombing civilian 
zone is enforceable because the bombs are rolled out of these 
slow-moving helicopters over Northwestern Syria predominantly, 
easily accessible from the coast, well within reach of U.S. 
boats.
    Secondly, it's pragmatic because we know Assad is 
responsive to the credible threat of force. We know he does. 
It's strategic because it undermines one of ISIS' most powerful 
tools of recruitment, that it alone can offer protection from 
Assad's atrocities. It's responsible because it mitigates the 
flow of refugees which gets at global security. But most 
importantly, creating a no bomb zone would stop the most 
important tools that are being used to slaughter and terrorize 
Syrian civilians, especially the children who are the most 
vulnerable, as you've seen, to these toxic gases, and whose 
small bodies are literally ripped apart by the hideous shrapnel 
filling these explosive barrel bombs.
    I'm a doctor, and I'm very familiar with death, but I have 
never seen a more obscene way to kill children. I've never 
watched so many suffer in such an obscene manner. Syrian 
children and Syrian civilians deserve protection, and the 
United States can provide it.
    I really hope this committee today will prevail upon the 
Obama administration to act to do so. Thank you.
    [The prepared statement of Dr. Sparrow follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. Thank you, Annie. I appreciate that, Dr. 
Sparrow. Thank you very much for your very concise arguments 
that you laid out. I thank all the witnesses for all that 
they've tried to do in this humanitarian crisis over the years.
    One of the questions I was going to ask you is that I know 
that the Turkish Government raised the issue of a no-fly zone 
when asked to help. Their point was there's a humanitarian 
crisis in terms of the number of refugees from the cities 
coming over our border. It looks to me is that what primarily 
drives that, one of the issues that really drives it is the 
dropping of these barrel bombs from these MI-17 Helicopters.
    It seems to me, as you laid out that argument, Annie, that 
there is a very effective way that Turkish, Jordanian, UAE, 
U.S., French, Canadian, and British air power in the region can 
simply check or chase out of the skies these helicopters, these 
Russian-made helicopters that, you know, are cumbersome and 
slow to move, but they're effective at one thing, just as those 
old Antonov planes that dropped barrel bombs are effective at 
doing. They're not effective using against military forces, 
particularly, but they can be enormously effective in use 
against civilian populations in dropping things like barrel 
bombs on cities. And because we have a circumstance now where 
the blowback is such that those who are fighting ISIS in places 
like Allepo have to have this two-front war of battling ISIS on 
the ground, while looking up over their shoulder up to the 
skies to see when the Assad regime is going to again hit them, 
because his preoccupation is carrying out his effort which 
slowly drives the Syrian people, you know, over the border into 
Turkey, or into Jordan. And it would seem as though the logical 
thing to do would be to ground those helicopters and those 
Antonov planes when they do things like this; just chase them 
out of the sky and put an end to this. But for that to happen 
it takes a decisive decision to act, a decisive decision to say 
no, you won't drop chemical weapons any longer.
    Anyway, your thoughts on that, Dr. Sparrow.
    Dr. Sparrow. Thank you, Chairman Royce. Indeed, this is the 
main driver of the flow of refugees. If you can put a map up, 
it's easy to see that these are civilian areas, and our 
preoccupation with ISIS is distracting us from these systematic 
assaults on civilian homes, and neighborhoods, and hospitals, 
and schools.
    In the last month alone, there have been 35 attacks by the 
government on hospitals by air strikes. No one else has this 
air capacity. So the civilians are being driven out, the 
children are dying, they have to seek healthcare, and the 
doctors are dying in the hospitals. There are so many ways to 
die in Syria. So many of my colleagues have been forced to 
leave, and our best bet at mitigating this in so many ways, as 
I said, we can do it from the sea. We can just chase them out 
of the skies.
    After the sarin attack, Assad didn't bomb anyone for 10 
days because of the credible threat of use of force. That's 
really significant. To chase them out of the skies means the 
creation of a humanitarian space enabling us the safe passage 
of humanitarian aid or medicines. We allow children and people 
to stay inside Syria, and this is important because no one 
wants to be a refugee. Turkey has 2 million refugees already, 
of the 4 million refugees, at least. We don't need more 
refugees, and they don't want to be refugees. We can enable 
them to stay safely in their own country, and curb these 
obscene breaches of humanity that are such effective tools of 
terror and destruction so easily in a way that unites us all, 
and a very practical consensus that doesn't involve shooting 
down or fixed wing aircraft. It's just stopping those 
helicopters, as you described, which push those barrels out, 
just as they did in Darfur with the genocide of civilians. 
There's nowhere to hide.
    Chairman Royce. Thank you, Dr. Sparrow. Dr. Tennari, your 
thoughts on what could be done in order to stop the helicopter 
attacks that drop the barrel bombs?
    Dr. Tennari. The air strikes are focused mostly on hitting 
civilians. We haven't seen, for example, these air strikes used 
in such focus against militant groups on the ground, or 
training camps, and so on. What we need to end these attacks is 
to establish a no-fly zone.
    Some may argue, including in yesterday's testimony of 
Ambassador Power, that implementing a no-fly zone may aid 
extremism. Although I have great respect for Ambassador Power, 
I do not agree with her on this. I live in Syria, and I never 
see these helicopters and airplanes used against extremists or 
against training camps, and so on. All we see is these planes 
and helicopters being used against hospitals, against schools, 
and against general civilian populations. And I don't know how 
saving the lives of these civilians and ending this can in any 
way help extremists.
    Chairman Royce. Thank you. I think my time has expired. 
I'll go to Mr. Engel.
    Mr. Engel. Well, I want to thank all of our witnesses. Each 
of you really gave outstanding testimony, and I'm not usually 
speechless, but after watching those pictures of the children 
dying, I'm speechless. I just don't know what to say. We had an 
earlier hearing in this committee probably about less than a 
year ago where we had a photographer who smuggled his pictures 
out of Syria, and we saw something very similar: Bodies after 
bodies, hundreds, and hundreds, and hundreds, and hundreds of 
dead bodies obviously killed by gas and other horrific things. 
And it just really disgusts me that, you know, the United 
Nations--I'm from New York. The United Nations, they sit and 
they spin their wheels, and this type of murder of civilians 
keeps going on, and the world is silent.
    Ambassador Ford, let me ask you. Obviously, the use of 
chlorine gas is a violation, a serious allegation under the 
Chemical Weapons Convention. What should be the consequences of 
this violation in your opinion?
    Ambassador Ford. Ideally, what we would like, Congressman 
Engel, is for the persons responsible in the Syrian military 
chain of command to be held accountable. To do that, we need 
two things. We need, one, an investigation with a mandate to 
determine responsibility. You know, there are people up in New 
York, you were just talking about the United Nations. There are 
still countries in New York that are arguing that the Syrian 
opposition is responsible for chemical weapons attacks, not the 
Syrian Government, so it's important that some kind of an 
investigative team have a mandate to go do that. I know 
Ambassador Power is trying to work that now.
    Second thing in order to hold people accountable is, we 
need to get, finally, to some kind of a settlement in Syria 
where officers responsible for these attacks are ultimately 
produced for justice. That will have to be part of a larger 
settlement.
    Mr. Engel. You know, last September the Organization for 
the Prohibition of Chemical Weapons concluded, as I said in my 
statement, ``with a high degree of confidence,'' that's their 
words, that ``chlorine was used systematically and 
repeatedly,'' that's their words, in attacks in Northern Syria. 
But what puzzles me is that the OPCW did not attribute 
responsibility to the Assad regime. It just boggles my mind. 
I'd like your comment on that.
    Ambassador Ford. Exactly, Congressman. They did not have a 
mandate to determine responsibility; although, if you read 
between the lines of their report where they mentioned that the 
eyewitness accounts consistently spoke of the chemical weapons 
being delivered by helicopters. That, in a sense, points the 
finger squarely at the regime, even if the Organization's 
report did not specifically say the Syrian Government did the 
attacks, or carried them out.
    But I think in order to get some kind of Chapter 7 action 
out of the Security Council we will actually need a very 
blatant statement that says it is, in fact, the Syrian 
Government that is doing this. Were we able to get that 
statement, I think it would be much more difficult for any 
country in the Security Council to use a veto.
    Mr. Engel. You know, President Obama was set to launch 
military strikes in 2013 in August. I remember that really 
well, against Syria if the regime were to use chemical weapons. 
Obviously, when they announced plans to dispose of its weapons, 
the administration backed away from its threats to strike.
    You know, when there is inaction on the part of the United 
States and other countries of the free world, I think that 
dictators and despots use that as a carte blanche to continue 
to do what they have done, and I'm afraid that we're seeing 
more and more of that.
    Dr. Sparrow, do you want to add anything to your testimony? 
I thank you for your good work, and pleased that we have you as 
a witness.
    Dr. Sparrow. Thank you. I believe we still have an 
opportunity to act, and every day there are more barrel bombs. 
Yesterday, 21 kids were killed with their moms at summer camp. 
We get tired almost of talking about these attacks because 
there are so many, and the brutality goes on.
    We now have an opportunity to do something that is very 
practical, doesn't involve boots on the ground, and actually 
enables a consensus to mitigate this crisis in so many ways. 
And even to focus on Northwestern Syria as a starting point, it 
does send a clear message that we don't want to tolerate this 
brutal breach of humanity any longer. And it is a radicalizing 
factor toward ISIS, so we can be strategic here in so many 
ways, and be clear that a sea-based no-fly zone doesn't curb 
any efforts, Assad's, our own, the coalition's ability to fight 
ISIS; rather, it stops the radicalization, but most 
importantly, it does protect the civilians. This means Muslim 
kids, Christian kids, Alawites, Druze, all those children are 
still in Syria and they all deserve protection, too.
    The permanent psychological fallout of these chemical 
weapons doesn't go away. An awful thing about bombing with gas 
is that you can't hear the explosion, you can only find out 
about it when it comes with the smell. It sinks, that's why 
it's done at night. If you bomb a hospital, a lot of the 
hospitals are actually in basements, so you're actually 
contaminating the hospital. There's nowhere to hide, and you 
don't know.
    Last year, he bought canisters from China, so it was easy 
just to roll canisters of liquid chlorine which vaporized under 
pressure, but this year we see this domestic production, these 
improvised chlorine bombs made out of easy ingredients like 
hydrochloric acid, potassium permanganate, so it's so easy to 
make. We have to do something that actually stops the aerial 
onslaught, because that is the key here to really mitigating 
the worst humanitarian crisis.
    Mr. Engel. Well, thank you. You know, people who say that 
ISIS is our real enemy and somehow we should look the other way 
with Assad because he's the one standing up to ISIS should 
watch this hearing, and hopefully they change their minds.
    Chairman Royce. Would the gentleman yield?
    Mr. Engel. Yes, Mr. Chairman.
    Chairman Royce. Mr. Engel, from what I've seen in watching 
the aerial campaign over Allepo, it is, in fact, the Assad 
regime. I think you might agree that in dropping the barrel 
bombs on the Free Syrian Army and on the civilian population in 
Allepo, while at the same time ISIS is attacking Allepo on the 
outskirts of the city he, in fact, is working hand in glove 
with ISIS, because his goal, seemingly, is to drive the 
civilian population out of all of these areas using ISIS on the 
ground to do it, since ISIS doesn't attack his forces or rarely 
does, and carries out their objection or their focus, 
seemingly, on the civilian population, which is his target, as 
well. It seems to me that the Syrian people have two enemies in 
this. One is Assad, and the other is ISIS.
    Mr. Engel. Well, that's a very astute observation which I 
concur. And let me conclude by thanking Dr. Tennari and Mr. 
Habib for your courage in coming here, and for letting the 
world know what's really going on in Syria. We really 
appreciate it and, hopefully, with a better future for the 
Syrian people, both of you will be regarded as heroes in the 
future for bringing your message to the rest of the world. We 
stand with you, and we hope that the Syrian people will soon be 
free of this scourge from Assad. Thank you.
    Chairman Royce. Ileana Ros-Lehtinen is the chairwoman of 
the Subcommittee on the Middle East and North Africa.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    There should be no doubt that Assad is, in fact, the one 
responsible for the horrific humanitarian crisis, the violence, 
the killing in Syria. I think those who still say it's the 
opposition, they're looking for an excuse to be a non-actor, 
and a person who is enabling Assad to continue with these 
atrocities like the use of chemical weapons and barrel bombs 
against innocent civilians.
    I see no urgency, however, from the Obama administration 
aimed at pressuring Assad to go. We could be destroying and 
neutralizing Assad's air capabilities, sanctioning Assad, his 
military officials, or any other entity, including the Russians 
and the Iranians, that are supporting him, and we could be 
focusing our efforts here in Congress to passing a substantive 
authorization of the use of military force in AUMF that not 
only authorizes military force against ISIL, but also against 
Assad, al-Nusra, and any other terrorist entity operating in 
Syria.
    Our Train and Equip Program in Syria may not be enough. 
According to the latest reports, only 2,000 fighters have been 
identified, 400 have been vetted, only 90 have begun training, 
and DOD says that the program is not aimed at attacking Assad. 
We've got to change our strategy in Syria because attempting to 
degrade and defeat ISIL while forcing the very ones we are 
training and equipping to promise, they have to promise to not 
attack Assad, makes little, if any, sense.
    In the meantime, the Assad regime has been responsible for 
30 chlorine bomb attacks from March to June, just in that time 
span. While the first chemical weapons attacks in Syria were 
reportedly with sarin gas, subsequent attacks, as we know, have 
all been with chlorine. So, I wanted to ask the panelists, 
first, is there any evidence of other chemical weapons being 
used in Syria today other than chlorine? And, also, in his 
latest book, former Israeli Ambassador Michael Oren has said 
that the Russian plan to remove chemical weapons from Syria 
originated with an Israeli minister. Ambassador Ford, I wanted 
to know how you would characterize the Obama administration's 
handling of the whole situation from the red line, if you cross 
it, we're not going to forget about that. We're going to take 
action, and then nothing happens, to the plan to remove 
chemical weapons. And what role might Israel have played in all 
of this? And, lastly, it's well known that Russia continues to 
prop up the Assad regime. What leverage do we have in the U.S. 
over Russia to persuade it to change its calculus on Assad, and 
assist in removing him from power? And what about the other 
countries in the region, what could they do, as well? 
Ambassador?
    Ambassador Ford. Thank you, Congresswoman. With respect to 
Ambassador Oren's comments about the Israeli role, from where I 
sat inside the State Department in the autumn of 2013, I did 
not see a visible Israeli role, and so I just can't comment on 
what he wrote in his book. It wasn't visible to us at the upper 
working level, shall I say.
    With respect to what happened in 2013, in retrospect, 
obviously, laying out a red line and then not enforcing it has 
hurt our credibility not only inside Syria, but it certainly 
has not acted to deter Assad, and it's probably hurt us 
regionally and internationally. It's just a matter of record.
    I would also add that I came up to this committee with 
Secretary Kerry, and it was a hard sell here on Capitol Hill at 
the time, Congresswoman, so----
    Ms. Ros-Lehtinen. Some of us were there trying to help 
out----
    Ambassador Ford. It's not to excuse----
    Ms. Ros-Lehtinen [continuing]. But the team sort of left 
the field.
    Ambassador Ford. It's not to excuse policy decisions, it is 
simply to say that policy decisions are hard.
    I think going forward, as I said in my opening statement, 
it's really important to figure out how to deter Assad. I don't 
think that he can be deterred without some kind of indirect or 
direct military action. The totality of my Syrian contacts for 
years have described his regime as really paying attention only 
to military, whether it be American or other, to military 
actions. Thank you.
    Ms. Ros-Lehtinen. Just quickly comment on how you evaluate 
the Training and Equip Program that we have going in Syria now.
    Ambassador Ford. I think you're referring to the one that's 
using the Department of Defense Program monies. And I have two 
comments on it. Number one, the scale of it is not enough, even 
to really affect the Islamic State which deploys in Syria 
somewhere between 15-, 20-, 25,000 fighters. For us to inject 
2-, 3-, 4-, or 5,000 I don't think is going to make a huge 
difference. And I'm not even talking about the logistical 
problems that force would have.
    But more broadly speaking, Congresswoman, I do not think we 
will be successful convincing many Syrian experienced and 
capable fighters to pledge only to fight the Islamic State and 
not to fight the Assad regime. I don't excuse the Syrians in 
that, but I think it's important for Americans to understand 
that the Assad regime is responsible for the deaths of maybe 
150,000 to 200,000 people in Syria. The Islamic State is 
horrible, it's brutal, it's awful, it's killed maybe 4,000 to 
5,000 Syrians. So, if you're sitting where a Syrian sits, the 
Assad regime's brutality is worse even than that of the Islamic 
State, as horrible as it is.
    Ms. Ros-Lehtinen. Thank you.
    Chairman Royce. We'll go now to Mr. Brad Sherman.
    Mr. Sherman. The moral dilemma that America faces in this 
circumstance is far more complex than we face almost anywhere 
else. The path of righteousness is far from clear. It would 
help our moral dilemma if ISIS and Assad were secret allies, 
and they were acting as such last year, but this year the ISIS 
forces have engaged Assad and taken territory.
    It would be easier for us from a moral dilemma standpoint 
if Assad was killing people mostly with gas, but as Dr. Tennari 
points out, it is the explosive bombs that are killing most of 
the civilians, and causing terrible death, dismemberment. 
Dropping explosive bombs is the number one tactic of the United 
States in military actions this century. Dropping bombs with 
explosives is entirely legal if you're aiming at legitimate 
military targets, not only at other combatants, but also at 
legitimate strategic targets like refineries.
    So then for these explosive bombs, the issue is whether 
Assad is deliberately striking civilians, and the evidence is 
overwhelming that he is. But the fact this his explosive bombs 
are shaped like barrels is not legally or morally significant. 
The fact that he is using the explosives dropped from airplanes 
is not illegal. The fact that he is targeting civilians is.
    It's, I think, wrong to say that the United States has done 
nothing to help the Syrian people. Through our actions, perhaps 
not carefully scripted, Assad has been deprived of his sarin 
gas, his mustard gas, his nerve agents. If he still had these 
and was willing to use them, he would have killed hundreds of--
100 times and more, more people than had been killed by the 
chlorine gas.
    Providing Atropine is, I think, not to be dismissed; 
though, of course, it is not enough to stop the death. 
Although, a no-fly zone would not stop the chlorine death, and 
the chlorine can be delivered on the ground, as well. So, the 
issue is a no-fly zone, and how we might tailor that.
    I would point out that the AUMF that we're operating under, 
and which we should be revising in this committee, authorizes 
virtually any action against Sunni extremists, and does not 
authorize any action against the extreme Shiites, including 
Assad who, as the Ambassador points out, has killed well more 
than 150,000 people.
    As to us dealing with hitting Assad, and thereby depriving 
ISIS of a recruiting tool, they've got many recruiting tools, 
and if they're able to seize more territory from Assad and put 
their flag up in this or that Syrian town, that will also be a 
recruiting tool. But I think the Shiite extremists are more 
dangerous to America, and as Ambassador Ford points out, have 
killed far more Middle East civilians than has ISIS, and that 
the question is how do we craft a no-fly zone.
    Is there--but, first, Ambassador Ford, we've heard that the 
strategic reason Assad is using these tactics against civilians 
is to force them to leave. What military advantage is he trying 
to get? Where is he trying to get them to leave from? Where is 
he trying to get civilians to go to, and how does that help 
him?
    Ambassador Ford. Congressman, the reason the Assad regime 
is targeting civilians the way it is, is it's literally trying 
to drain the sea that supports the Armed Opposition. So, they 
have been quite unsuccessful in defeating the Armed Opposition 
fighters, and they have turned with ever greater ferocity on 
the civilians that support them. And that's why they're trying 
to depopulate Eastern Allepo, for example, because that is 
where the Armed Opposition has one of its strongholds.
    Mr. Sherman. So, they're aiming to depopulate all Sunni 
areas of Syria, or only particular neighborhoods where they 
think there's strong support for the Opposition?
    Ambassador Ford. They're, obviously, not trying to 
depopulate urban areas under regime control. But where the 
regime is not in control, Congressman, the Opposition is, it's 
a national opposition, it's national in size, national in 
scope, and so they will target almost any place from the south 
to the north, to the east and the west.
    Mr. Sherman. So, wherever there are civilians under 
Opposition control, Assad assumes those civilians want to be 
under Opposition control, support the Opposition, and is trying 
to turn them into residents of camps in Turkey and elsewhere.
    Ambassador Ford. Correct. If civilians in a particular area 
do not themselves fight against the Armed Opposition, then they 
are for the regime fair targets.
    Mr. Sherman. Good. I want to try to sneak in one more 
question with Dr. Sparrow.
    Would our no-fly zone efforts in order to prevent the use 
of chemical weapons need to be only against helicopters, or 
would we also need to shoot down his fixed wing aircraft?
    Dr. Sparrow. As you pointed out, Congressman, this chlorine 
is being delivered overwhelmingly from the air. It's not like 
sarin which required sophisticated ground missiles to deliver 
it. It's coming from the air, it's being rolled out, whether in 
canisters or homemade bombs. And as I said, it's very easy, so 
it is not requiring fixed wing aircraft. It's the----
    Mr. Sherman. No, no. I'm asking, if Assad's helicopters 
were grounded, would that solve the problem, or would his fixed 
wing aircraft also deliver these barrel bombs filled with 
chlorine gas?
    Dr. Sparrow. Fixed aircraft will keep on killing, but these 
are civilian targets. And I say that because chemical weapons 
never kill as many as conventional weapons. In World War I, 
they killed 100,000 of the 10 million dead, but they are so 
effective at scattering people, driving them out. In wars of 
attrition, they're a beautiful tool, a very strategic tool, and 
they are consistent with their strategy. So, a fixed wing 
aircraft can keep on attacking ISIS in Deir ez-Zor, or Kobani, 
but this strategy will protect civilians.
    Mr. Sherman. So, you're proposing just an anti-helicopter 
strategy?
    Dr. Sparrow. Yes.
    Mr. Sherman. Thank you.
    Chairman Royce. Let's see. Next in the queue, Mr. Ted Poe 
of Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here. I'm a little out of breath.
    Ambassador Ford, my questions are directed primarily to 
you. If we have time, we'll have all of the witnesses weigh in 
on it.
    What is the U.S. policy regarding Assad?
    Ambassador Ford. In brief, Congressman.
    Mr. Poe. Yes, in brief.
    Ambassador Ford. The United States views him, I think in 
his official policy, the President has stated it many times 
that he has no legitimacy, and he should step aside in favor of 
a new national unity transition government. The problem, very 
frankly, is that's a nice strategy, but there are no tactics 
for making that happen.
    Mr. Poe. Let me ask you about the tactics. Going all the 
way back to Gerald Ford, reiterated by Jimmy Carter, Ronald 
Reagan, President Bush, all issued statements or Executive 
Orders regarding the fact that the United States does not 
assassinate heads of state. Is that generally our policy?
    Ambassador Ford. Yes, sir, it is.
    Mr. Poe. Now, in 2011, NATO bombed the house where Gaddafi 
was staying but missed him, and then later in October he was 
killed. I'm not sure we know who actually was responsible for 
that, but--so, why doesn't the United States, if Assad is so 
bad, he's killed 200,000 of his own people, and put that in 
perspective. Americans lost 400,000 in World War II killed, 
military, so that's a lot of folks, 200,000. Why don't we just 
assassinate him? And then we get rid of him; he's gone, he's 
the bad guy, he's gone. But why don't we do that?
    Ambassador Ford. As you said, Congressman, it's not our 
policy to assassinate people. With respect to Libya, there was 
a United Nations Security Council resolution which authorized 
Chapter 7 action. We don't have that in Syria.
    Mr. Poe. Okay.
    Ambassador Ford. Which has been a factor in the 
administration's considerations. I think going forward, while I 
don't advocate assassinating President----
    Mr. Poe. And I'm not saying we should, either. I'm just 
asking the question.
    Ambassador Ford. Yes. But I think in going forward, to the 
extent that the United States remains committed only to 
operating under Chapter 7 approved by the Security Council, the 
United States will almost certainly not be able to influence 
events on the ground in Syria. And that, in turn, poses risks 
to our own national security.
    Mr. Poe. Okay. Why hasn't OPCW said who's responsible for 
the chemical attacks? Why haven't they done that?
    Ambassador Ford. Their mandate was only to (a) oversee the 
dismantling of the declared Syrian chemical weapons program, 
and (2) to investigate in an intrusive manner where other sites 
that were not declared but might be potential chemical weapons 
facilities. And, in fact, they discovered four, but they never 
had a mandate. They never--let me say that again. They never 
had a mandate to determine who was responsible for using 
chemical weapons.
    Mr. Poe. All right. Let me reclaim my time. Do they have 
the ability to say who is responsible right now? Could they say 
who is responsible, or would they say we don't know?
    Ambassador Ford. If they were here today, Congressman, they 
would say they don't know.
    Mr. Poe. They don't.
    Ambassador Ford. Because they have no mandate to label 
anyone responsible.
    Mr. Poe. So, if we gave them a mandate to say who is 
responsible, and they said Assad was responsible, then 
technically the U.N. could weigh in on this?
    Ambassador Ford. Correct.
    Mr. Poe. Okay.
    Ambassador Ford. And it may be that, ultimately, it'll be 
impossible to get the OPCW that mandate, Congressman, and so I 
think this is one of the things being discussed in New York is, 
is there another way to get an investigative team with that 
mandate.
    Mr. Poe. All right. Thank you, Ambassador. Reclaiming my 
time.
    Let's go back to Assad; removing Assad. I'm not saying we 
ought to assassinate him. Just the U.S. policy is not to get 
rid of him. But let's say he is gone tomorrow, he's out of 
town, he's gone. Would that result in chaos, turmoil, or 
tranquility in Syria, or pick a different word?
    Ambassador Ford. It could be either one. It is possible 
that his departure would facilitate getting to the national 
political negotiation that I talked about, because he has 
refused, he has refused to negotiate, and his instructions to 
his delegation in Geneva 15 months ago was not to negotiate. 
However, that will require some pressure from us on the Armed 
Opposition----
    Ms. Ros-Lehtinen. Thank you so much, Ambassador.
    Ambassador Ford [continuing]. Be willing to negotiate.
    Ms. Ros-Lehtinen. Thank you, Judge Poe.
    Mr. Poe. I'd like to ask one question.
    Ms. Ros-Lehtinen. Absolutely.
    Mr. Poe. Isn't ISIS just as bad as Assad if they were in 
control?
    Ambassador Ford. In some ways the Islamic State is even 
worse, but they will not be in control of Syria, even if Assad 
does fall.
    Mr. Poe. Thank you.
    Ambassador Ford. They will not----
    Mr. Poe. Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. Thank you. We'll turn to Mr. Sires of New 
Jersey.
    Mr. Sires. Thank you, Madam Chair. Thank you for being here 
today. This is a very moving hearing but, you know, I'm so 
conflicted with some of these decisions that we have to make in 
the Congress.
    First of all, you know, the conflict in Syria has left us 
with three main groups, Assad's brutal force, ISIL, a fractured 
group consisting of some modern militia, some al-Qaeda 
affiliates. You know, I don't know where we could turn and not 
make the situation worse.
    I really don't think that there is a military solution to 
this. And I understand that instituting a no-fly zone may help, 
but I don't know if us getting involved would make it better. I 
mean, I think we screwed up Iraq. I mean, look at the situation 
in Iraq. And every time I go to these veterans' events and I 
see our young men missing a limb, missing legs, I mean, I 
really don't know I could ever vote to send troops in some of 
these places, because the rest of the Arab world is just 
sitting by and watching this go on. Where's the rest of the 
world? Why must we send our young people into this battle, 
spend our money, and at the end they hate us for it? So, 
where's the rest of the world? I mean, where is the rest of the 
Arab world?
    They are their children. I mean, the Turks just look around 
and see people getting killed. They don't care. They don't even 
let people in through their border. So, can anybody tell me how 
we're going to make this better without a political solution to 
this?
    Ambassador, you want to start? I mean, you could try.
    Ambassador Ford. I'd be delighted to. I'd be delighted to, 
Congressman.
    I agree with you, there is no military solution. There has 
to be a national political negotiation; otherwise, Syria will 
fragment into something like Somalia. But how do you get to the 
political solution? How do you get there?
    The only way is to put more military pressure on the side 
that won't negotiate, which is Assad. Just like Richard 
Holbrooke in the Balkans used limited judicious amounts of NATO 
air strikes to get Milosevic to go to the table at Dayton; 
something like that has to be done with Assad.
    Mr. Sires. But I think the situation is a little more 
complicated.
    Ambassador Ford. The Balkans were pretty complicated, too, 
Congressman. So, if I may continue, a no-fly zone, for example, 
it's not the only thing that would help with this, but a no-fly 
zone, for example, if properly negotiated out with regional 
countries and used as part of an effort, as part of an effort 
to get to the political negotiation could be very effective. It 
would both help save civilian lives, but it could be used as 
leverage to get Assad to the table, and to get the Armed 
Opposition to negotiate and engage seriously when they go to 
the table.
    Mr. Sires. Mr. Habib, you want to just--I know you----
    Mr. Habib. Thank you, sir.
    Well, first of all, I just want to say that the Syrian 
people did not ever ask for boots on the ground from the United 
States or from other countries. What we asked for does not put 
any of the American soldiers at risk; just provide protection 
for the Syrian people.
    Inaction from the international community will lead to more 
complexity, and it will cause more threats on the international 
security, in general. If Iran wins this war, this will not be 
in the interest of the United States or the international 
community. And if ISIS wins, or any radical group wins, of 
course, that will threaten the international security.
    What we ask for is to give a chance for the moderate 
opposition to be able to provide an alternative for the people 
inside Syria, and for the public in general.
    Mr. Sires. Okay, Dr. Tennari.
    Dr. Tennari. The biggest producer and biggest magnet of 
terrorism in Syria is Bashar al-Assad.
    Mr. Sires. Oh, I don't question----
    Dr. Tennari. Bashar al-Assad has also brought to Syria the 
gains of Hezbollah, the gains of Irani and Shiite extremist 
militias, and others that have come into our country from 
terrorist groups. And this is what also helped cause other 
groups that also came out, terrorist organizations that also 
came out in Syria.
    Mr. Sires. Thank you.
    Ms. Ros-Lehtinen. We'll let him finish and then move on.
    Mr. Sires. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. No, go ahead.
    Mr. Sires. Thank you.
    Ms. Ros-Lehtinen. He had something else to say.
    Dr. Tennari. The cost of any intervention for the United 
States back in 2011-2012 is obviously much less costly for the 
United States then. The current situation, the chaos that's 
there is only going to spread and become worse, and that's 
going to force the United States at some point to intervene at 
a much more--even more complex situation.
    Ms. Ros-Lehtinen. Thank you, very much. Thank you, Mr. 
Sires.
    Mr. Sires. Thank you.
    Ms. Ros-Lehtinen. We will now go to Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair.
    Ambassador, let me couch this question without trying to 
seem overly glib. Looking at Syria right now, Bashar Assad is a 
failed leader, failed his people before the civil war, 
continues to fail to even respect human rights. We can all 
agree that that's the best you can say. But with about 28 
million Syrians, plus or minus, and about half of them already 
displaced either in the country or outside the country, 
correct, and then of the remaining call it 18 million or less 
that are theoretically still in their homes, a big chunk, let's 
call it 25 percent either support Bashar Assad, or at least 
docile in any opposition.
    Then you have another chunk of the country, more than half 
by some estimates, are in the hands of ISIS where the vast 
majority either are docile and just want to continue their 
lives or, in fact, support ISIS.
    In that environment, when we are both against Assad and 
against ISIS, what are our numbers? How many numbers can we 
actually say are people who are ready to engage in an active 
effort sufficient to displace both of these despicable groups?
    Ambassador Ford. It's important to understand here, 
Congressman, that this effort to unseat Assad has been going on 
4 years now, and is actually getting stronger, not weaker. So, 
you just look at the situation on the ground, and that the 
regime has lost a second Provincial capital.
    Mr. Issa. But they've lost it to ISIS.
    Ambassador Ford. No, they did not. They lost it to a group 
called Jaysh al Fateh, and to other sector armed groups 
fighting from the north and the south.
    Mr. Issa. Who coordinate----
    Ambassador Ford. They did not lose it to the Islamic State.
    Mr. Issa. But they coordinate their opposition by regions, 
the same as Hezbollah. Today, the Lebanese armed forces fights 
in one zone, Hezbollah fights in another zone, they deconflict 
their zones to the extent that they are keeping Lebanon outside 
of the direct war.
    The question I have for you is, what is our path to 
displace both of them, or are we really having this hearing to 
talk about the current use of chemical weapons, and atrocities 
by Assad while, in fact, the effort to displace him is really 
in name only. And the reality is, is that we are fighting 
against ISIS while claiming that we want regime change, and 
knowing full well that regime change today, if Assad were to 
fall, ISIS would dominate the political scene more in Syria 
than Hezbollah ever has in Lebanon.
    Ambassador Ford. Two comments on that, Congressman. Number 
one, the administration's priority clearly is Iraq, not Syria. 
And, clearly, even in Iraq it is to fight the Islamic State. To 
the extent the administration is engaged much on Syria right 
now, it's with our air campaign against the Islamic State, an 
air campaign which, as best I can tell, the criteria for 
victory are not clear, and the duration of the mission is very 
unclear. That's my first comment.
    Second, I disagree vehemently that were Assad to go, the 
Islamic State would dominate Syria. The total number of people 
who are fighting the Islamic State right now both in the regime 
and among moderates in the Free Syrian Army outnumbers the 
Islamic State. And it is important to note, Congressman, that 
although the Islamic State has been on attack for months up 
around Allepo, it is actually being pushed back. It is not 
advancing. Let me say that again. It is being pushed back. And 
those are not people who are getting any help from the United 
States. And the Islamic State has also suffered losses at the 
hands of Syrian Kurds, so I do not think the Islamic State 
would dominate Syria.
    Mr. Issa. Ambassador, my time is just about expired. I 
appreciate your opinion. The reality is, Hezbollah doesn't 
control the majority of Lebanon either, but they dominate the 
politics of Lebanon, undoubtedly.
    Do any of you see a political solution in Syria since the 
military solution seems to be a multi group, essentially 
becoming a civil war with multiple groups fighting multiple 
groups?
    Ambassador Ford. That's an excellent question.
    Mr. Issa. And that is for anyone on the panel. Do any of 
you see a political solution?
    Ms. Ros-Lehtinen. Just one to answer. His time is up. One.
    Mr. Issa. I'll take that as no. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. And now we turn to 
Mr. Deutch, the ranking member on the Subcommittee on Middle 
East and North Africa.
    Mr. Deutch. Thank you, Madam Chairman. To our witnesses 
here today, thanks for your tireless humanitarian work, and for 
being here today to share some of the horrors that you've 
witnessed firsthand.
    The medical personnel and the humanitarian workers who are 
the first responders risk their lives in Syria every day 
running toward explosions instead of away from them, and they 
deserve our gratitude and support.
    Ambassador Ford, welcome back. Thank you for your years of 
service to this country.
    As we have heard already today, the Assad regime has 
continued its horrific use of chemical weapons in direct 
violation of the OPCW agreement; yet, the international 
community remains paralyzed with inaction. The fact that 
whether or not chlorine gas is a chemical weapon is even part 
of this conversation is baffling to me.
    When chlorine gas is put in a barrel bomb and dropped from 
the sky on civilians, then dropped again when rescue workers 
have reached the scene, it is a weapon of mass destruction. And 
the fact that the international bodies do not assign blame for 
these attacks by the Assad regime is a failure of the system.
    The regime is the only entity with air power, the only one 
capable of dropping barrel bombs, and at this point continued 
inaction by the international community is unacceptable.
    Just this morning there were reports of elephant rockets 
being dropped on civilians. These are bombs, if I understand it 
correctly, with rocket motors attached to them to cause greater 
destruction, despite making them far more inaccurate. And while 
I'm glad that Secretary Kerry acknowledged yesterday that these 
attacks by Assad cannot continue, I'm just not sure that simply 
asking the Russians to relay this message is enough.
    Russia can't continue to block action against the barbaric 
use of chemical weapons at the Security Council. This is horrid 
at this point, and we've been talking about it for a long time, 
but today's hearing is about the use of chemical weapons, and 
we have to be prepared to stand up and acknowledge it, and 
respond to it.
    Now, Dr. Tennari, chlorine gas is notorious for the 
psychological terror that its deployment, or threat of 
deployment, inflicts upon populations. And the Assad regime 
also possesses and uses weapons which are significantly more 
efficient at killing on a massive scale. Dr. Sparrow, you 
talked about this. Why do you think that the regime continues 
to use chlorine as a weapon in violation of law, and what 
affect does that have on the communities that are under siege?
    Dr. Sparrow. As I said--thank you.
    Mr. Deutch. Dr. Sparrow, can we have just Dr. Tennari 
answer first, and then I'll turn to you.
    Dr. Sparrow. Sorry.
    Mr. Deutch. That's okay. No, thank you.
    Dr. Tennari. The Assad regime uses chlorine gas 
specifically to displace people from their areas, specifically 
against the areas that are under Opposition control, so to help 
strike at the popular support of the Opposition. Assad's troops 
and his strategy, even whenever they come into a specific area, 
they always write down on the walls, ``Either Assad or no one 
else--either Assad or we burn down the whole country.'' And 
this is the strategy behind using chlorine barrel bombs, is 
that it's either be under Assad control or no one is there, and 
so he uses that to displace populations.
    Mr. Deutch. Dr. Sparrow. Thank you, Dr. Tennari.
    Dr. Sparrow. Together the barrel bombs and the chlorine are 
completely consistent with this very deliberate strategy of 
targeting civilians and hospitals. It is a classic strategy of 
war, as described.
    March 16th, the chlorine attacks recommenced; 28th of 
March, Idlib fell from the Government, the City of Idlib was 
taken by coordinated action by the Opposition. I was there. The 
very next day, the government retaliates by taking out the 
National Hospital in Idlib and the Red Crescent Hospital, 
including the children's ward in the National Hospital.
    It's a very swift retaliation. It drives people quickly as 
Tennari described, forces them to move, so attacking them 
together with destroying the infrastructure and creating the 
panic and the fear really puts people out of action very 
effectively. And this is a war of attrition. Two years ago 
Eastern Ghouta had a population of 1 million and several 
hundred doctors. Today, Ghouta has \1/5\ million and it has 50 
doctors left. In DC, you have about 600,000, and almost 7,000 
doctors. This is why it's not a political solution, but it is a 
mitigation of this misery and helps stop the escalation.
    Mr. Deutch. Dr. Sparrow, thank you. Madam Chairman, if our 
sensibilities are shocked by what we've heard today and what 
we've seen in these videos, then there is just no question that 
there is an obligation to respond in some way. And I appreciate 
very much the opportunity to have this hearing today to discuss 
this further, and I yield back my time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. And now we 
turn to Mr. Donovan of New York.
    Mr. Donovan. Thank you, Madam Chair. I just have a couple 
of quick questions.
    First, Doctor, is air drops the only method that's 
effective for the use of this chlorine gas?
    Dr. Sparrow. Yes. Last year canisters of liquid gas just 
vaporized, this year improvised chlorine bombs, and it's much 
more effective. It's very difficult to deliver chlorine in this 
way from the ground.
    Mr. Donovan. Okay.
    Dr. Sparrow. It's not like sarin. So, yes, we are only 
seeing it in air drops.
    MR. Donovan. Ambassador, do the Syrians have the capability 
to manufacture helicopters themselves, or are outside forces 
supplying them with these vehicles to drop the chlorine?
    Ambassador Ford. The helicopters that the Syrian Government 
uses are Russian, and the spare parts are all Russian, too.
    Mr. Donovan. Okay. And my final question, if a no-fly zone 
was imposed, Ambassador, would we have to be the enforcer, the 
United States, or are there other countries in the region that 
would enforce the no-fly zone?
    Ambassador Ford. Countries in the region, Congressman, have 
been asking us to do a no-fly zone for a long time. They're 
already participating with us in air operations in Syria 
against the Islamic State, and I have no doubt that a number of 
those same countries would join us if we were to expand the 
mission to be a no-fly zone over specific designated areas in 
Syria. We would certainly have other countries join us.
    Mr. Donovan. Thank you, sir. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Donovan. Mr. Cicilline of 
Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman. Thank you to our 
witnesses for being here, and thank you to the chairman and 
Ranking Member for convening this hearing.
    For a regime and a dictator prepared to engage in this kind 
of horrific and depraved slaughter of its own people, and 
particularly of children, and the destruction of hospitals and 
health care facilities, the significance of removing the other 
chemical weapons, mustard gas and sarin, I think is 
significant. One can only begin to imagine what Assad or the 
regime would be capable of if they had access to those weapons.
    But with respect to our response to these chemical weapons, 
it seems as if, Ambassador Ford, you're suggesting that some 
military action will create some conditions for a political 
solution, that military solution is not--and I think Dr. 
Sparrow makes the same recommendation. And in your written 
testimony you speak about the cruel irony of the denial of 
chlorine and what it has caused in neighborhoods in Syria, and 
really serious, grave consequences of hepatitis, typhoid, polio 
outbreaks, and very, very serious diseases. And now chlorine is 
being used and dispensed in the cruelest way, and the most 
devastating way. And the cruel irony of this is almost hard to 
imagine.
    But I want to just press you on the solution. Dr. Sparrow 
says a no-fly zone in civilian areas that would protect, 
obviously, or prevent the bombing, use of barrel bombs that 
dispenses chlorine. And she also concludes in her written 
testimony that there is strong reason to believe that Assad's 
barrel bombing of civilians would quickly stop if a credible 
threat of military retaliation were made. And that this kind of 
a no-fly zone in this limited way is not militarily 
complicated, but a matter of political will. So, I'd like, 
Ambassador Ford, for you to comment on that. Do you agree with 
that assessment that it should be a no-fly zone, it should be 
narrowly construed, and that it's not militarily complicated, 
it's a matter of political will, and that it will likely cause 
Assad and the Assad regime to stop the use of chemical weapons? 
Because it was very persuasive to me, I should say.
    Ambassador Ford. Congressman, first of all, I'd just like 
to say I spent 5 years in Iraq trying to help stand up an Iraqi 
Government so we could get our forces out, so I don't take 
lightly asking for the deployment of American forces or an 
expansion of an existing mission that we already have in Syria. 
But militarily, it's doable.
    I think a different question is how long would it go on? It 
went on 12 years in Iraq. We had a no-fly zone over Iraq for 12 
years. So, the answer to that is, I can't give you a specific 
time mission, and that makes me uncomfortable. But I can only 
say that it will help if done properly, and if negotiated 
properly with the regional states, and the Syrian Opposition, 
it could help get us over the hump and to a negotiating table 
where we can get, finally, a national political settlement. 
Right now, we are going nowhere, nowhere toward a national 
political settlement. In fact, the opposite, the country is 
fragmenting, and that will enable the Islamic State and the al-
Qaeda affiliate al-Nusra to have areas they control out into 
the medium and long term, Congressman.
    Mr. Cicilline. Ambassador, you sounded as if you were 
trying to make another point, and there wasn't enough time when 
one of my colleagues was questioning you. You said some 
pressure from us to negotiate, and ISIS will not be in charge 
of Syria. Would you speak a little more about that?
    Ambassador Ford. Certainly. The Islamic State is not the 
majority of the Syrian Opposition. It is one element fighting 
Assad, and sometimes it even cooperates with Assad in a very 
byzantine way. Let's not forget that before Islam, the 
Byzantines controlled Syria, so they carried over some of the 
tricky politics.
    Were Assad to go tomorrow or the next day, there would be a 
competition for power in Damascus and in all parts of Syria, 
and nowhere has the Islamic State ever prevailed over the more 
moderate elements of the Opposition, not in Allepo, not with 
the Syrian Kurds, if you've been reading the news about the 
gains that the Syrian Kurds have made, and down in the south, 
as well. In all of those places, the Islamic State's attacks 
have been blunted.
    The real progress the Islamic State has made to the extent 
it's made progress in Syria, is in places where it was fighting 
the regime, like Palmyra.
    Mr. Cicilline. Thank you. I thank you again, Madam Chair, 
and I associate myself with the comments of the gentleman from 
Florida, Congressman Deutch, that in the face of this evidence, 
that we have a responsibility to do something, and the world is 
watching. And I thank, again, the witnesses for being here to 
share their testimony. With that, I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Duncan of South 
Carolina.
    Mr. Duncan. Thank you, Madam Chair. And I thought the 
gentleman from Florida, Mr. Deutch's comments were apropos, 
too.
    They say that a picture is worth a thousand words, a video 
is worth a billion words, in my opinion. That video that you 
showed this morning was very, very compelling. It was moving to 
me emotionally. It needs to be shown all across America.
    Delving into this no-fly zone idea, which I am apt to 
support based on testimony today, and the comments from my 
colleagues, and the questions they asked. But delving into it, 
I realized that from 1992 to 1999, that DOD estimated that the 
U.S. and its allies flew over 200,000 sorties in Iraq. They 
were operating under what they believed to be a U.N. Security 
Council Resolution 688, but Secretary General Ghali said that 
the no-fly zone was illegal under 688. So, I ask, Ambassador, 
is there a Security Council resolution now for Syria that would 
cover a no-fly zone?
    Ambassador Ford. I think that's one of the difficulties, 
Congressman. I do not believe there is a Security Council 
resolution.
    Mr. Duncan. Would you agree with me that Russia would 
probably, being the benefactor of Assad, probably veto any 
Security Council resolution for a no-fly zone?
    Ambassador Ford. They have indicated that consistently.
    Mr. Duncan. Yes, that's speculation, and so I think they 
would, as well. So, how do we operate a no-fly zone legally in 
international law getting the participation of the U.N. 
Security Council?
    Ambassador Ford. The argument is going to have to be made, 
Congressman, that this falls under the acknowledged 
responsibility to protect, which as a principle has been 
acknowledged by the United Nations, but has not been applied in 
this way. The irony of this is that the international law 
strictly interpreted actually gives Assad full reign to kill 
like this; even though he's committing war crimes in the 
process.
    Mr. Duncan. That's amazing.
    Ambassador Ford. Yes, it is. I must say, I was surprised 
when I understood this myself.
    Mr. Duncan. Thanks for sharing that. We've operated in 
defiance of international or U.N. Security Council resolutions 
in the past, and so what are the practical implications for 
creating a no-fly zone in your opinion?
    Ambassador Ford. I think it has to be understood, not just 
as a way to protect Syrian civilians, as laudable and as 
important as that is, but because it's a major commitment, 
and----
    Mr. Duncan. From regional allies, I guess, is what you're 
saying?
    Ambassador Ford. That it has to be used also as a tool to 
get to a political settlement in Syria so that it doesn't last 
12 years like the one in Iraq did. And so we will have to 
negotiate the terms of it with regional states that are also 
supporting the Opposition so that they back a political 
settlement, and with the Syrian Opposition so that it, too, 
will negotiate seriously. And then we have to turn to the 
Russians and say this is not to overthrow Assad, this is to get 
to the negotiating table, and to stop the murder of civilians.
    Mr. Duncan. You know, in Iraq with the no-fly zones, we 
were basically stopping the Saddam Hussein regime from flying 
in two regions. The dynamics in Syria are much greater because 
we do have the Assad regime attacking its own citizens. There's 
no doubt in my mind about who's responsible, but we also have 
ISIS, and we have a lot of other factions that are in-fighting, 
but also fighting Assad, so the dynamics are completely 
different.
    I guess most of us would be concerned that a no-fly zone 
would possibly lead to an escalation of U.S. involvement in 
Syria because of the different factions. You know, you have 
ISIS take a manpad acquired from Lybia, and shoot down an 
American F-18. That's an escalation. And the rules of 
engagement currently against ISIS and Iraq keeps--there are 
many sorties flown every day that not a single bomb is loose 
because of the rules of engagement and waiting for clearance 
from some intelligence organization and up the chain of 
command, and so I'm really concerned about how this whole no-
fly zone would actually operate. I think there's a lot of 
unanswered questions. But don't let that concern give you any 
doubt about my commitment to try to make this work for a no-fly 
zone, because I do see how it would help the Syrian people. 
Yes, sir?
    Ambassador Ford. One comment, Congressman. Having worked 
with our military in Iraq for almost 5 years, I have huge 
respect for what they do, and the risks that they take. They're 
already at risk of a surface-to-air missile hitting one of our 
pilots in an operation against the Islamic State. That risk 
already exists, and in fact it's been going on now for 9 
months.
    Mr. Duncan. In Western Iraq or in Syria?
    Ambassador Ford. No, in Syria.
    Mr. Duncan. Okay.
    Ambassador Ford. We are bombing in Syria regularly. What 
concerns me is that what we have now does not protect 
civilians, and it's a military mission of unlimited duration. 
Nobody can tell us when it's going to end. It does not help get 
to a settlement of the Syria crisis. It's just out there 
hitting the Islamic State, but it doesn't lead to anything to 
resolve the fundamental conflict that is helping Islamic State 
recruit.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Duncan. Thank you, Ambassador. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Duncan. Mr. Keating of 
Massachusetts.
    Mr. Keating. Thank you, Madam Chairman.
    I'd suggest in response to that question, perhaps there's 
other reasons we're targeting in Syria for other groups working 
there, as well, so there's a reason. But I'm going to ask you 
to do something difficult. I'm going to ask you to try and get 
in the head of President Putin for a second, because to me, the 
way I view the situation, short term certainly we've discussed 
what he's done in the Security Council and things, but in the 
long term, Assad being there is not in Russia's self-interest. 
They've had a natural relationship with Syria, and his 
continuation, you know, as a leader there will hurt them, you 
know, in the short run because it will endanger the ability to 
go on with the administration after he leaves. And I do think 
he's in a more precarious situation than he was before. I do 
think he--one way or another, he'll be leaving there before 
long.
    What can Russia do in that instance, even behind the 
scenes, to assist in his removal? What are their options should 
they choose to do so, because I think they have self-interest 
at stake here in removing him, or having him go? Ambassador, I 
guess you're the best person in this regard.
    Ambassador Ford. Well, I think the Russian President views 
Syria as an ally, and so they obviously have interests and we 
have to understand that. I think in any kind of action where we 
increase assistance to the Syrian Armed Opposition to help stop 
these air attacks, or we undertake ourselves as part of a 
coalition direct military action, I think it will be important 
to reach out to the Russians. I think it would be very useful 
in terms of getting to the political negotiation I was talking 
about, Congressman, to have some kind of a regional contact 
group, and have that formalized so that we're in a room talking 
with the Russians, and also with Turkey, and Saudi Arabia. And 
I'm going to say it, and Iran, because all of those countries 
are going to have to work together to help resolve the Syrian 
crisis. They all have their clients in this conflict. So, the 
things that Russia could do, Congressman, would be at the 
simplest level to stop sending spare parts to these helicopters 
and these aircraft. That would be the simplest thing, and they 
can do that quietly. They don't need to make any announcements. 
They need not lose face in doing that. It's simply a way of 
putting pressure on the regime to stop using these attacks 
against civilians.
    They could limit financing. They could limit other arms 
shipments. They send a lot of arms into Syria. The Syrian Army 
is basically equipped by the Russians, and they can also 
quietly behind the scenes press the regime to go to the 
negotiating table, which also is important.
    Mr. Keating. Well, do you agree with the premise that, at 
least the way I view it, that Assad is definitely--his presence 
there is not in Russia's long term interest in the region 
there? And any one of the other witnesses that might want to 
comment on that, I'd welcome that testimony.
    Dr. Sparrow. May I just quickly say that Russia and Putin 
also recognize that chemical weapons used against civilians 
plumb the depths, plumb new depths of inhumanity, and it's 
actually easier to get Russia to agree to a no-fly zone that 
protects civilians, as it also is with the Iraqi Prime 
Minister, with whom I've also had this conversation. We can get 
consensus around stopping the civilian slaughter which then 
helps those who are currently even supporting the Assad regime 
to achieve consensus around this no-fly zone and lead toward a 
political solution. It's helpful for everybody.
    Mr. Keating. Okay. Any of the other witnesses wish to 
comment on Russia's self-interest here in having Assad gone?
    Dr. Tennari. The long term interest of Russia would be in 
having a decent relationship with the Syrian people, and the 
Syrian people have made the decision that they no longer want 
to be ruled by Bashar al-Assad.
    The presence of Assad in power has caused enormous chaos, 
and this chaos is added, and it's expanded on a daily basis. 
Getting Assad away from the front will open the road to a 
political solution. It will open the door for the Syrians to 
sit at the negotiation table and find a political solution to 
this crisis.
    Mr. Keating. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Keating. Dr. 
Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chair. I appreciate everybody 
being here today.
    I would like to just mention that we are introducing a 
resolution condemning the use of toxic chemicals as weapons in 
the Syrian Arab Republic, including chlorine substances along 
with a strong recommendation to the international community 
requesting no-fly zones, including helicopters. This has gone 
on way too long. It's something that needs to stop, and I'm 
kind of outraged that the world community and the U.N. Security 
Council has not acted on this sooner. I mean, how many times do 
we have to repeat history with atrocity, after atrocity, after 
atrocity. This is the 21st century. We need to tighten up as a 
population or people.
    Ambassador Ford, I want to direct--I've just got a comment 
or a question. Back in March, the end of March 2011, you stated 
that Assad is no Gaddafi. There is little likelihood of mass 
atrocities. The Syrian regime will answer challenges 
aggressively, but will try to minimize the use of lethal force. 
How did we miss that so wrongly?
    Ambassador Ford. At the time, Congressman, in my 
discussions with the Syrian officials, including at the 
Presidency, including top advisors to Assad, they were telling 
me that they wanted a dialogue, and they made a few tentative 
steps toward a dialogue. They did release several prominent 
political prisoners, including Haitham al-Malah, and Riad Seif 
who had been imprisoned for years. It was my mistake of 
judgment, but I want you to understand that context.
    Mr. Yoho. All right. We were talking of Libya at the time 
going in, doing a no-fly zone. And I hear a lot of no-fly 
zones, you know, we should do a no-fly zone. I just want to 
remind everybody a no-fly zone, number one, if we do that, is 
an act of war. We're attacking a sovereign nation that has not 
attacked us. They are not a direct threat to the United States 
of America. It is an act of war. A no-fly zone does not prevent 
helicopters from flying. A no-fly zone didn't prevent Saddam 
Hussein from slaughtering his own people when we had a no-fly 
zone there. A no-fly zone is not a solution, it's a military 
operation. Yes, it can be used to put more pressure on the 
Assad regime, but it is not an answer to the problem.
    We did that in Libya, and Senator Cornyn out of Texas said 
the mission in Libya was unclear, and it was an international 
no-fly zone. And I think there was around 18 to 20 countries, 
and when it came time to participate, half of those countries 
didn't show up. The Americans had to do most of the lifting. We 
had 19 warships in there, 18,000 troops committed. The first 11 
days cost $550 million, and then $40 million a month after 
that. And money is not the issue here. We're talking about 
human life, and the dignity of life, and stability in that 
area. But NATO was unable to finish the job on its own, and 
there was no plan post-Gaddafi. And now Libya is becoming the 
hotbed for ISIS. It's becoming the home base for ISIS.
    What are we doing to prevent a repeat of that? If we were 
to do this and Assad falls, what is going to be replaced there, 
and is it going to be worse, because we saw al-Qaeda fall. We 
saw it, you know, almost beat down, and then out of that came 
ISIS. It's al-Qaeda Part 2. I'm not ready for Part 3. 
Ambassador Ford, if you'd comment on that.
    Ambassador Ford. You raise valid questions. My response to 
that is that after Gaddafi fell, there was not a strong plan in 
place for the transition government in Libya to establish a 
monopoly of force. The militias were not disarmed.
    Whatever is negotiated for Syria, and I emphasize the word 
``negotiation,'' I do not think it is possible to have a 
military solution in Syria, certainly not any time soon. Those 
negotiations between the government and the Syrian Opposition 
must include negotiations about how security will be handled, 
and how the government, ultimately, will have the monopoly of 
force, because that government will have to fight the 
extremists of al-Qaeda and the Islamic State. And that will 
have to be one of the things that comes out of the negotiation.
    Mr. Yoho. Well, I would hope before we go into a no-fly 
zone we have a clear, concise strategy of what happens post-
Assad? What happens? Who's going to be there? Who's going to be 
standing up protecting the Syrian people, who in Syria is going 
to do that, and where is that support going to come from on an 
international basis? And you talked about Russia, you know, 
they could stop sending parts. My experience and what I found 
out especially with the meeting today is Russia will not 
support Assad, because Assad is suppressing his people. And 
Putin's number one fear is for an uprising in a zone area with 
people, and you could see that happening in Ukraine with the 
beginning of the uprising there. And Putin is deathly afraid of 
that, so if he's supporting Assad, his people in Russia are 
saying you know what, we don't want to go against this guy. And 
until the world community comes together, until America leads, 
and we have lost our way when we draw red lines and we back 
off, when we ask for regime change and we back off, and we need 
to say what we mean, and mean what we say, and we need to back 
that up with action. And we need to have the courage, and we 
need to have the big stick; but, more importantly, people need 
to know we're going to use that. And I hope in the future we 
progress down those avenues. Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Dr. Yoho. 
Mr. Perry of Pennsylvania.
    Mr. Perry. Thank you, Madam Chair, and thank the witnesses 
and the other folks for being here.
    I just want to start out with a statement regarding one of 
my colleagues from the other side that said that we screwed up 
Iraq. It is this member's opinion that there are a few folks in 
this town that screwed up Iraq, but it certainly wasn't the 
military, and it wasn't the Congress, either. Iraq was a stable 
place not too long ago, and that's at the feet of a couple of 
individuals in this town, in my opinion.
    With that having been said, Ambassador Ford, you stated 
earlier today that the events in Syria are a national security 
issue, and I tend to agree with you, but we don't have this 
Chapter 7 situation resolved. And so, I think you're advocating 
for it, so I just want to be clear and have your remarks 
clarified, that in spite of a lack of Chapter 7 authority, that 
we should--the United States should take some action. Is that--
some action. Right?
    Ambassador Ford. Yes. I don't think we have to have a no-
fly zone. I certainly see advantages to a no-fly zone, but if 
that's just too big a stretch, if that's just too difficult in 
Washington to do, then at least I would like to see us help the 
Syrian Armed Opposition deter and interdict these attacks. And 
whether that be by giving them standoff mortars and rockets so 
they can hit the airfields from which the helicopters take off, 
whether that be radar so they can detect----
    Mr. Perry. So, you're not wed to the no-fly zone.
    Ambassador Ford. No.
    Mr. Perry. But that is a----
    Ambassador Ford. I see advantages to it, but I know there's 
a lot of opposition in Washington.
    Mr. Perry. Let me ask you this. The Syrian Government has 
not been officially determined responsible for the chlorine gas 
attacks, and that's kind of the impetus for much of this 
discussion, right, the weapons of mass destruction, the 
chemical weapons, weaponized chlorine.
    What are we doing? What's the administration, what's the 
United States doing about pursuing a unilateral strategy to 
determine official responsibility? Are we doing anything? 
Should we be doing anything? Because we can't get it through 
the U.N., right? Russia is going to stand in the way. So, if 
that's the case, and we're left with arming some faction in 
Syria, or a no-fly zone, would it be smart and would it be 
possible to pursue a way to degrade Assad's use of his air 
force via lack of parts and maintenance provisions from Russia? 
But, you know, we've got to get to that. And it seems to me in 
this morass of very difficult circumstances, that that is 
something that should and could be pursued, and it gets us to 
where we want to be without putting lives in peril of the 
United States, and everything else, and jeopardy that goes with 
that.
    Ambassador Ford. If I understand the administration's 
policy, Congressman, they are trying to work this now in New 
York and trying to get Russian buy-in for an investigative team 
of some kind to go and determine responsibility. I think the 
negotiations with the Russians would be somewhat easier if the 
Russians understood that failing U.N. Security Council 
agreement, the United States is prepared to work with a 
coalition of like-minded countries to act itself; whether that 
be in terms of a no-fly zone, or if that's too much heavy 
lifting, then at least to provide people, Syrians on the ground 
the ability to interdict those air strikes.
    Mr. Perry. Do you know how long that process has been going 
on? I think if I'm Russia, if I'm Putin, I want to play out the 
clock. I want Assad to stay there as long as he can. If he's 
imperiled a little bit or a lot, so what? I keep my Navy base 
there, and everybody's happy. Right?
    Ambassador Ford. I think this has been in play for at least 
2 months now, and I think it goes faster if the Russians 
understand that we ourselves are prepared to operate with a 
small coalition of like-minded countries----
    Mr. Perry. Can you tell me who the small coalition of the 
like-minded would be?
    Ambassador Ford. Oh, it would include Turkey, Jordan, Saudi 
Arabia, Qatar, France, probably the British, at least those, 
and I would think----
    Mr. Perry. That would be willing to work in a no-fly zone 
capacity?
    Ambassador Ford. Yes.
    Mr. Perry. Those--who would run such a thing?
    Ambassador Ford. Oh, I would think everyone would look to 
the United States to do that. Our military command and control 
capabilities far exceed those of any of the countries I 
mentioned.
    Mr. Perry. What do we do about the Russian anti-aircraft 
weapons that were shipped to Syria?
    Ambassador Ford. Well, we already have that problem, 
because we're already flying combat missions over Syria 
regularly. So, I think what we want to do is tell the 
Russians--if we're going to do this kind of military action, we 
want to tell the Russians that the point is both to stop the 
attacks, and to get to the negotiating table, and to re-
energize the Russians to help us get there.
    Mr. Perry. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, and I want to thank 
all of the panelists for excellent testimony on this crucial 
humanitarian crisis that engulfs us everyday. We hope we take 
action soon.
    And with that, the committee is adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by Mohamed Tennari, M.D., Idlib 
              coordinator, Syrian-American Medical Society

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by Mr. Farouq Habib, Syria program 
                         manager, Mayday Rescue

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by Annie Sparrow, M.B.B.S., deputy 
 director human rights program, Assistant Professor of Global Health, 
                Icahn School of Medicine at Mount Sinai


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
